January 27, 2011

STEVEN R. PHELPS
MANAGER, SOX MANAGEMENT CONTROLS AND INTEGRATION

SUBJECT: Interim Management Advisory – Fiscal Year 2011 Financial Testing
         Compliance Business Mail Entry Unit Oversight Reviews – Pittsburgh, PA
         (Report Number FF-MA-11-012)

This report presents interim results for the U.S. Postal Service Office of Inspector
General’s (OIG) fiscal year (FY) 2011 review of the U.S. Postal Service Financial
Testing Compliance (FTC) Group’s performance and conclusions at the Pittsburgh
Business Mail Entry Unit (BMEU), Pittsburgh, PA (Project Number 11BR004FF006),
performed November 30, 2010. The Pittsburgh BMEU is in the Western Pennsylvania
District of the Eastern Area. At the conclusion of FY 2011, we will summarize the results
for all reviews in reports to Postal Service Headquarters.

To comply with Section 404 Sarbanes-Oxley (SOX) Act of 2002 requirements, the
Postal Service must report on the effectiveness of the agency’s internal controls to
ensure accurate financial reporting. It must submit an annual assessment to the Postal
Regulatory Commission which monitors and manages the Postal Service’s compliance
with SOX. The Postal Service established the FTC to conduct tests of key financial
reporting controls.

We conducted this oversight review in support of the independent public accountant’s
(IPA) reliance on Postal Service management’s testing and overall audit opinions on the
financial statements and internal controls over financial reporting. The IPA relies on the
Postal Service’s internal control testing to support the overall audit opinions.

The overall objective of our review was to evaluate whether FTC analysts properly
conducted and documented their examination of SOX financial reporting controls.

To perform this work, we observed FTC analysts conduct tests and reviewed their
supporting documentation. We performed this review from November 2010 through
January 2011 in accordance with the Quality Standards for Inspections.1

1
  These standards were last issued by the President’s Council on Integrity and Efficiency (PCIE) and the Executive
Council on Integrity and Efficiency (ECIE) in January 2005. Since then, The Inspector General Act of 1978 as
amended by the IG Reform Act of 2008 created the Council of the Inspectors General on Integrity and Efficiency
(CIGIE), which combined the PCIE and ECIE. To date, the Quality Standards for Inspections have not been amended
to reflect adoption by the CIGIE and, as a result, still reference the PCIE and ECIE.




                                             Restricted Information
Fiscal Year 2011 Financial Testing Compliance Oversight Reviews –              FF-MA-11-012
 Pittsburgh BMEU – Pittsburgh, PA



Conclusion

Based on our review of FTC’s work, we determined FTC analysts properly conducted
and documented their examination of key SOX financial reporting controls. See
Appendix A for the results of our review.

The interim FTC oversight review advisories will be issued to the SOX manager in final
format. At the conclusion of the fiscal year, the OIG will summarize the results of all its
FTC oversight reviews and include recommendations, if applicable, in a report to Postal
Service Headquarters. Management agreed not to respond to the interim reports but will
have the opportunity to formally respond to the draft summary report.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions, please contact Timothy Cole, acting audit manager, at 724-584-5642, or me
at 724-584-5630.


   E-Signed by Kevin Ellenberger
 VERIFY authenticity with ApproveIt
    Thursday, 27 January, 2011



Kevin H. Ellenberger
Director, Field Financial – East

Attachments

cc: Douglas G. Germer
    Corporate Audit and Response Management




                                                    2
                                         Restricted Information
Fiscal Year 2011 Financial Testing Compliance Oversight Reviews –                                             FF-MA-11-012
 Pittsburgh BMABMEU – Pittsburgh, PA


                                                 APPENDIX A: REVIEW RESULTS

                  Site Name                                                 Pittsburgh, PA
                  Finance Number-Unit ID                                    416608-0093
                  Location Type                                             BMEU
                  Scope Period Under Review                                 10/01/2010 thru 11/29/2010
                                                                            Business Mail Review Topic 450000 dated
                  FTC Review Program Version and Date                       11/24/2010
                  FTC Team                                                  East




                                                                                                      Did FTC           Did the OIG
                                                                      Did the OIG       Did FTC      adequately          agree with
                                                                         have         perform the   document its            FTC’s
                                                                      exceptions/        step in        work            exceptions/
                                                   Did FTC have        findings       accordance     performed        findings (or no
                                                    exceptions/        that FTC           to its       and the          exceptions/
       FTC Review             FTC Review          findings in this     did not?        program?       results?           findings)?
       Step#/Control #      Step Description      step? (Yes/No)       (Yes/No)         (Yes/No)      (Yes/No)            (Yes/No)
           450001/        Mail Check-                   No                 No              Yes           Yes                 Yes
          104CA63         In/Receipt
       450002/104CA2      Mail Verification             No                 No            Yes            Yes                Yes
           450003/        Placarding/                   No                 No            Yes            Yes                Yes
          104CA65         Induction
           450004/        End-of-Day                    No                 No            Yes            Yes                Yes
          104CA66         Reconciliation
           450005/                                      No                 No            Yes            Yes                Yes
                          SOX Certification
          104CA06
                          Finalizing Postage            No                 No            Yes            Yes                Yes
       450006/104CA1      Statements




                                                                        3
                                                             Restricted Information
